RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 20-1029
CITY OF AUSTIN, TEXAS,
Petitioner,
v.
REAGAN NATIONAL ADVERTISING OF AUSTIN, LLC, ET AL.,
Respondents.
As required by Supreme Court Rule 33.1(h), I, Gordon D. Todd, certify that
the Brief of Out of Home Advertising Association of America, Inc., Media Resources,
Inc., Renfroe Outdoor Advertising, DDI Media, Dakota Outdoor Advertising, and
Hughes Outdoor Media as Amici Curiae in Support of Respondents in the foregoing
case contains 3,517 words, excluding the parts of the document that are exempted
by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 29, 2021.
/s/ Gordon D. Todd
GORDON D. TODD
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

